                                Closeout Memorandum tor M99120057



             In September 1999, a graduate student' at the institution2 sent a series of emails alleging
    intellectual theft by four faculty3 members to NSF officials, which were forwarded to OIG. The
    graduate student alleged that the faculty, his advisor, the department chair: and a small business
    owner5, had taken the idea and research from his graduate thesis and used the idea and research to
    promote a small business: which two7 of the subjects owned. The student's advisor was the
    former PI of the NSF award that allegedly supported the student's work.

           After reviewing the inquiry report the institution submitted to our office, two OIG staff
 members met with university officials8 responsible for coordinating the inquiry process. We
 asked the institution about how apparent conflicts of interests9 between several of the committee
 members and the subjects were resolved. The misconduct                     responded that he chose
 committee members who had some experience with this field of research, and that a sufficient
 time had passed (at least 5 years) from when any of the committee members had collaborated
 with any of the subjects, so that he did not consider the collaborations to be disqualifying conflict
 o f interests. The misconduct official said he opted to include members on the committee that
 understood the type of research that the student alleged formed the context of this allegation.

         We sought additional information to clarify the inquiry report. The clarification related
to three areas: 1) the course of the inquiry the committee pursued, 2) its evaluation of written
evidence, and 3) the conflicts of interests issues related to the allegation.

         We were concerned about the lack of supporting evidence for, the graduate student's
claim about his thesis work in the lab. The committee apparently did not make an effort to
corroborate the student's claim or subjects' defense by looking for documentation in the lab
computers or by interviewing others who worked in the lab or were familiar with the research
projects. The committee report indicated that there was no written evidence presented by the
graduate student to support his allegation that work being performed by the small company was
based on his thesis or research.'

         The student alleged there were documents that were inaccessible to him in lab computers,
which supported his claims. The misconduct official told us that the committee believed that if
there was documentation in the lab computers to support the allegation, the student could have
and would have printed and provided it. The committee members indicated that because he
submitted other documents related to the small business fiorn those computers, he could have
provided the supporting evidence. Due to the nature of the confidentiality of the allegations
against faculty, the committee members chose not to inform others of the allegation by
interviewing them. We concluded that the committee made a reasoned decision not to interview
other individuals, because the complainant did not supply evidence to support his allegations.

1
  (redacted).
  The institution is {redacted).
  The four faculty are Dr. {redacted}, Dr. {redacted),Dr. (redacted) and Dr. (redacted).
  The Department Chair is Dr. {redacted).                        ,
  Dr. {redacted) is the president of the small company.
6
  The small company is {redacted).
7
  The owners are Dr. {redacted) and Dr. {redacted).
8
   The officials were Dr. {redacted), VP for Research and Graduate Studies and the General Counsel,
{redacted) of {redacted).
9
  Three of the committee members had collaborated with one or more of the subjects on publications or
projects at the (redacted).
10
   The misconduct official is Dr. {redacted), VP for Research and Graduate Studies.

                                               Page 1 of 2
                            Closeout Memorandum for M99 120057


          The committee found that the student could not support his claim that he first worked on
the research project and then, the faculty members, associated with the NSF-supported activities,
took it from him. To the contrary, the committee found evidence to support the fact that these
faculty members had actually worked on the research for some time before the graduate student
began working in this lab or with these individuals. We agree.

         We questioned whether or not the institution properly addressed faculty conflicts of
interests raised by the small company's industrial partnership status under an NSF award. The
president of the company, an adjunct faculty member, supervised the graduate student's research.

         We also questioned whether the COI of the student's advisor, the former NSF PI, had
been appropriately managed. The misconduct official sent us a copy of a COI form that the
former NSF PI submitted. The PI'S financial disclosure form indicates that he acknowledged his
small company ownership to the institution. However, there is no indication that the institution
addressed these COI issues in a meaningful way. Had the institution managed the conflict in a
way that would have given the former NSF PI and the student a clear understanding of the
student's research and the scope of the supervision by the small company president, the allegation
may not have been made to our office.

         The Center Director and Department Chair appeared t o understand the small company's
role in NSF-supported activities and to be aware that the faculty with'financial interests in this
company supervised and advised the graduate student. The institution may have been able to
manage the conflicts of interest issues more adeptly and address the appearance of the private
interest in the research for the small company's benefit.

        The information the University provided adequately supports its analysis of the issues
related t o the student's allegation. We concur with the committee that there was a lack of
substantive evidence to support the allegation and insuficient substance to warrant an
investigation.                      \




        This inquiry is closed.


cc: Investigations, IG




                                           Page 2 of 2
